GR-70-98-018
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Use of Equitable Sharing Revenues
by the Warwick, Rhode Island Police Department
GR-70-98-018
 
September 14, 1998
 
* * * * *
EXECUTIVE SUMMARY
The United States Department of Justice (DOJ), Office of the Inspector General (OIG)
has completed an audit of the use of equitable sharing revenues by the Warwick, Rhode
Island Police Department (Warwick PD).  Equitable sharing revenues represent a
share of the proceeds from assets seized in the course of certain criminal
investigations.  The United States Marshals Service reported distributing about
$1.6 million in equitably shared cash and property to the Warwick PD between July 1, 1992
and June 30, 1998.
The Department of Justice, Asset Forfeiture and Money Laundering Section of the
Criminal Division requested the audit.  The scope and methodology for the audit
are described in the Appendix.
Generally, the Warwick PD complied with the equitable sharing guidelines.  We
found that equitably shared cash received by the Warwick PD was accounted for properly and
used for appropriate law enforcement purposes.  However, we found the following
conditions during our audit:


Annual Certification Reports were not submitted timely, nor were fund and accrued
    interest balances properly reported.


Annual independent audit reports for FYs 1994 to 1996 were not submitted to DOJ.


Internal controls over equitable sharing funds need strengthening.

#####